NO:
In The
SUPREME COURT OF THE UNITED STATES
ROSEMARY WEBSTER; TIMOTHY WARE, JR.; DENNIS JEFFERSON
Petitioner (s)
v.
FRESENIUS MEDICAL CARE HOLDINGS, INC,;
a/k/a Fresenius Medical Care North America
Respondent(s)

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), Dennis Jefferson hereby certify that this
Petition for Writ of Certiorari contains 6,030 words, excluding the parts of the
document exempted by Supreme Court Rule 33.1(d). Total words contained in the
body of the petition are 7,091 words. Thus, the petition complies with the applicable
word limitation. I declare under penalty of perjury that the foregoing is true and
correct.
Executed on November

02

2020.

Dennis Jefferson 1
Pro Se
321 Gaywood Dr.
Nashville, TN 37211
(314)265-4558
dejefferson9@hotmail.com

